\

J

APPENDIX

A

Case: 20-3163

Document: 49-2

Filed: 03/29/2021

Page: 1

Case No. 20-3163
UNITED STATES COURT OF APPEALS
FOR THE SIXTH CIRCUIT
ORDER
UNITED STATES OF AMERICA
Plaintiff - Appellee
v.
BENJAMIN R. ROSS
Defendant - Appellant

BEFORE: GILMAN, GIBBONS, and SUTTON, Circuit Judges.
Upon consideration of the appellant’s motion to extend the filing of the petition for rehearing,
It is ORDERED that the motion be, and it hereby is DENIED.

ENTERED BY ORDER OF THE COURT
Deborah S. Hunt, Clerk

Issued: March 29, 2021

(2 of 2)

\

APPENDIX

B

Case: 20-3163

Document: 43-2

Filed: 03/02/2021

Page: 1

(2 of 10)

NOT RECOMMENDED FOR PUBLICATION
File Name: 21a0113n.06
Case No. 20-3163
UNITED STATES COURT OF APPEALS
FOR THE SIXTH CIRCUIT

FILED
Mar 02, 2021
DEBORAH S. HUNT, Clerk

UNITED STATES OF AMERICA,
Plaintiff-Appellee,

)
)
)
)

v.

)

BENJAMIN ROSS

)

ON APPEAL FROM THE UNITED
STATES DISTRICT COURT FOR
THE NORTHERN DISTRICT OF
OHIO

)

Defendant-Appellant.

)

OPINION

)

BEFORE: GILMAN, GIBBONS, and SUTTON, Circuit Judges.
RONALD LEE GILMAN, Circuit Judge. In June 2019, Benjamin Ross was indicted
on one count of attempted possession with the intent to distribute fentanyl, in violation of21 IJ.S.C
SS 841/aJUV flVlU YBT and 846. Ross moved to suppress the evidence obtained during the traffic
stop that led to his arrest, but the district court denied the motion after a suppression hearing.
In October 2019, Ross pleaded guilty to the charged offense. The court subsequently
sentenced Ross to 120 months in prison, which was a 15-month upward variance from the
Guidelines range of 84 to 105 months of imprisonment. Ross now appeals, claiming that the
district court erred in (I) denying his motion to suppress, and (2) imposing the upward variance.
For the reasons set forth below, we AFFIRM the judgment of the district court.

Case: 20-3163

Document: 43-2

Filed: 03/02/2021

Page: 2

Case No. 20-3163, United States v. Ross
I. BACKGROUND
In May 2019, in Youngstown, Ohio, Ohio State Highway Patrol Sergeant Alan Dunbar
observed a BMW sedan pull out in front of him. He had been waiting for the car to leave the house
because other officers suspected its driver (Ross) of drug activity. Dunbar noticed that the car had
heavily tinted passenger windows and, upon following the car, watched Ross make a left-hand
turn without signaling in advance. This caused Dunbar to activate his siren, pull over the BMW
sedan, and inform Ross of the traffic violations that Dunbar had observed: the dark window tint
and the delayed use of a turn signal. Upon noticing that Ross seemed nervous and was avoiding
eye contact, Dunbar requested that Ross step out of the car. When Ross complied, Dunbar
conducted a consensual pat-down, which revealed no weapons or contraband.
Sergeant Dunbar was working at the time in tandem with-a canine unit, led by Trooper
James Baker. Baker arrived while Dunbar was still interacting with Ross, and the drug-detection
dog alerted by the rear door on the driver’s side of the BMW. Due to the alert, the officers searched
the car and found a child’s toy train perched on the back seat. Inside the toy was a vacuum-sealed
bag containing several hundred blue pills that were later determined to contain 117 grams of
fentanyl.
Ross moved to suppress the evidence found during the vehicle search, arguing that
Sergeant Dunbar had neither probable cause nor reasonable suspicion to pull him over. The district
court denied the motion. Citing Dunbar’s testimony and dash-camera footage, the court held that
Dunbar had probable cause to believe that Ross had committed the two Ohio traffic violations in
question.
Ross pleaded guilty soon after, but he reserved the right to appeal the denial of his motion
to suppress. The Presentence Report, authored by Ross’s probation officer, recommended an
-2-

(3 of 10)

Case: 20-3163

Documenti 43-2

Filed: 03/02/2021

Page: 3

Case No. 20-3163, United States v. Ross

upward variance of 15 months from the Guidelines range in order to provide just punishment,
protect the public, and reflect the seriousness of the offense. Notice of a possible upward variance
was filed by the district court a day later.
At Ross’s sentencing hearing in February 2020, the district court adopted the 15-month
upward variance and sentenced Ross to 120 months in prison. The court noted, among other
things, Ross’s lengthy criminal history, his supervised-release status when he committed the
instant offense, the proximity in time of the offense to his recent release from prison, his drugrelated behavior while in custody, and the seriousness of the offense.
When the district court asked whether either party had any objections to the imposed
sentence, Ross neither objected nor asked the court to further explain its reasoning. Ross now
appeals, arguing again that Sergeant Dunbar’s initial stop of his car was improper, and contending
for the first time that the court failed to adequately explain its reasons for varying upward from the
Guidelines range when imposing the 120-month sentence. We address each of Ross’s arguments
in turn.
II. ANALYSIS
A.

Motion to suppress
1. Standard of review
When a defendant appeals the denial of a motion to suppress evidence, we review the

district court’s legal conclusions de novo, but set aside the court’s factual findings only if they are
clearly erroneous. United States v. Lee, 793 F.3d 680. 684 (6th Cir. 2015). A factual finding is
clearly erroneous when an appellate court, upon reviewing the evidence, “is left with the definite
and firm conviction that a mistake has been committed.” United States v. Navarro-Camacho, 186
F.3d 701. 705 (6th Cir. 1999). Because the district court denied Ross’s motion to suppress, all

-3 -

(4 of 10)

Case: 20-3163

Document: 43-2

Filed: 03/02/2021

Page: 4

(5 of 10)

Case No. 20-3163, United States v. Ross

evidence is reviewed in the light most favorable to the government. United States v. Gunter, 551
F.3d 472. 479 (6th Cir. 2009).
2. Discussion
“In order to effect a traffic stop, an officer must possess either probable cause of a civil
infraction or reasonable suspicion of criminal activity.” United States v. Lyons, 687 F.3d 754. 763
(6th Cir. 2012). Ross argues that Sergeant Dunbar had neither probable cause nor reasonable
suspicion to pull him over. He first contends that Dunbar could not have seen the window tint
prior to deciding to pull him over because of both the distance between the two cars and the angle
of Dunbar’s view at the time in question. Second, he argues that the dash-cam footage reveals that
he in fact used his signal in a manner consistent with Ohio law.
As to the first argument, we have held that an officer’s traffic stop of an individual for
unlawful window tinting does not run afoul of the Fourth Amendment where the officer has
“substantial experience enforcing this traffic regulation” and is “familiar[ ] with window tinting.”
United States v. Shank, 543 F.3d 309. 313 (6th Cir. 2008) (affirming the denial of a motion to
suppress); see also United States v. Shelton, 817 F. App’x 217, 219 (6th Cir. 2020) (same). Ohio
law requires that tinting on certain windows allow at least 50 percent of the light to pass through.
Ohio Rev. Code § 4513.241; Ohio Admin. Code § 4501-41-03(A)(3).
The issue here is that the district court erred twice in its written analysis. First, it incorrectly
recited the law. The court stated that Section 4513.241 of the Ohio Revised Code “makes it
unlawful to use tinted glass in ‘windshields, side windows, sidewings, and rear windows.’”

But

Ohio law does not place restrictions on the tint of a rear-side window or the back window. See
Ohio Rev. Code 4513.241 (directing the Director of Public Safety to adopt regulations governing
window tinting); Ohio Admin. Code 4501-41-03(A)(4) (adopting regulations that exempt any
-4-

Case: 20-3163

Document: 43-2

Filed:’03/02/2021

Page: 5

Case No. 20-3163, United States v. Ross
windows “not otherwise listed in paragraphs (A)(1) through (A)(3) or (A)(5) of this rule”); id. at
(A)(1)-(A)(3), (A)(5) (not listing rear-side window or back window). As an aside, we note that if
the back window is tinted to allow “less than fifty per cent plus or minus three per cent” light
transmittance, then “outside left and right rear view mirrors are required.” See Ohio Admin. Code
4501-41 -03(A)(4). But that portion of the regulation is not at issue in this case because Ross’s car
had outside rear-view mirrors.
Second, the district court found that Dunbar had probable cause to stop Ross because
“Dunbar had ample opportunity to observe and evaluate the rear side window on the driver’s side
of the vehicle as well as the back window of the vehicle.” The problem with the court’s finding is
that Ohio law permits such windows to be tinted, to say nothing of the fact Dunbar explicitly
testified that the back window was not tinted. Moreover, the government argued to the court that
Dunbar had stopped Ross due to the tinting on the passenger-side windows—not the driver’s rearside window or back window.
In apparent recognition of the district court’s errors, the government argues again that
Dunbar had probable cause to stop Ross because of the unlawful tint on the front-passenger
window. Dunbar indeed testified that he noticed the tint on the front-passenger window before
pulling over Ross, and the dash-cam footage reveals that Dunbar could likely see the frontpassenger window before activating his siren. But the government’s plausible argument does not
ameliorate the problems created by the district court’s misstatement of the facts and law in its
written opinion. We need not belabor this point further, however, because we find no error with
the district court’s finding regarding the turn-signal violation.
Turning to that argument, Ohio law provides: “When required, a signal of intention to turn
or move right or left shall be given continuously during not less than the last one hundred feet
-5-

(6 of 10)

Case: 20-3163

Document: 43-2

Filed:103/02/2021

Page: 6

Case No. 20-3163, United States v. Ross

traveled by the vehicle . . . before turning.” Ohio Rev. Code § 451 1.39(A). The district court
concluded that, based on both Sergeant Dunbar’s testimony as well as the dash-cam footage,
Dunbar had observed Ross commit a turn-signal violation. Upon review of the dash-cam footage,
we cannot discern precisely when Ross initiated his turn signal. But that alone does not leave us
with a “definite and firm conviction that a mistake” was committed by the district court in reaching
its factual finding, see Navarro-Camacho, 186 F.3d at 705. especially because the court also
considered Dunbar’s testimony: Indeed, the court made its finding only after hearing counsel spar
back and forth on the issue. Ross thus fails to show that the district court clearly erred in its finding
regarding the turmsignal violation.
B.

Sentencing
1. Standard of review
Ross next challenges the procedural reasonableness of the district court’s sentencing

decision. We typically review sentencing decisions under the abuse-of-discretion standard. Gall
v. United States, 552 IJ.S. 38. 56 (2007).

But where, as here, a defendant fails, to

contemporaneously object to the district court’s sentencing calculation, we review a claim of
procedural unreasonableness under the more deferential plain-error standard. United States v.
Bostic, 371 F.3d 865. 872-73 (6th Cir. 2004). Under that standard, “a defendant must show
(1) error (2) that was obvious or clear, (3) that affected defendant’s substantial rights and (4) that
affected the fairness, integrity, or public reputation of the judicial proceedings.” United States v.
Wallace, 597 F.3d 794. 802 (6th Cir. 2010).
2. Discussion
“For a sentence to be procedurally reasonable, ‘a district court must explain its reasoning
to a sufficient degree to allow for meaningful appellate review.’” United States v. Zobel, 696 F.3d
-6-

(7 of 10)

Case: 20-3163

Document: 43-2

Filed: 03/02/2021

Page: 7

Case No. 20-3163, United States v. Ross
558, 566 (6th Cir. 2012) (quoting United States v. Brogdon, 503 F.3d 555. 559 (6th Cir. 2007)).
A court that imposes a sentence outside the Guidelines range is required to state “the specific
reason” for the imposition of its variance. 18 ll.S.C. § 3553fcKT): United States v. Blackie, 548
F.3d 395. 401 (6th Cir. 2008). Reversible procedural error is committed where a court “fail[s] to
adequately explain the chosen sentence—including an explanation for any deviation from the
Guidelines range.” Gall, 552 U.S. at 51.
Ross contends that the sentence imposed by the district court was not procedurally
reasonable because the court insufficiently explained its decision to vary upward from the
Guidelines range by 15 months. In particular, he contends that the court’s written statement of
reasons was inadequate.
The following three boxes are checked on the written statement of reasons: (1) “To reflect
the seriousness of the offense, to promote respect for the law, and to provide just punishment for
the offense G8 ll.S.C. § 3553(a¥2¥AB.” (2) “To.afford adequate deterrence to criminal conduct
C18 ll.S.C. S 3553('a¥2¥BV)-” and (3) “To protect the public from further crimes of the defendant
G8 IJ.S.C. § 3553(a¥2'U'CY).” A short statement is also included: “The court varied upward to a
sentence of 120 months. Defendant was just released from prison and almost immediately began
to see[k] fentanyl. Nothing deters this defendant. Defendant was on supervised release in case
#4:14CR148 when this conduct occurred.”
This written statement of reasons, which includes the checked boxes and the short
summary, likely reaches the requisite level of specificity. See United States v. Feinman, 930 F.2d
495. 501 (6th Cir. 1991) (holding that the specificity requirement is satisfied by “a short clear
written statement”) (citation omitted); cf Zobel, 696 F.3d at 566-67 (finding that “merely
checking] off a box” would result in remand). But we need not determine whether the written
-7-

(8 of 10)

Case: 20-3163

Document: 43-2

Filed"03/02/2021

Page: 8

Case No. 20-3163, United States v. Ross

explanation is alone sufficient. Although we prefer that the reasoning for an upward variance be
reduced to writing, oral explanations can compensate for any deficiency in the written explanation.
Zobel, 696 F.3d at 566-67. The district court’s oral explanations here are more than adequate.
At the sentencing hearing, the district court methodically explained the various factors
driving its sentencing decision. The court first touched on the fact that Ross was raised in a
“positive home environment,” but suffers from learning disabilities, mental-health problems, and
addiction. It also recognized Ross’s need for drug and alcohol treatment while incarcerated and
compared Ross’s 120-month sentence with the average 132-month sentences of similarly situated
defendants.
The district court then emphasized the circumstances and seriousness of the instant offense,
commenting both on Ross’s knowledge that he was purchasing and distributing counterfeit pain
pills across state lines and on fentanyl’s harm to the community. It also highlighted Ross’s
recidivism and his continuing danger to the public by noting that not only did Ross have a long
history of violent offenses, but that the instant offense occurred just two months after Ross was
released from confinement for his previous offense. “[I]t is certainly relevant,” said the court, that
an individual who just “started supervision . . . has the wherewithal and the ability to, once again,
reconnect with drug traffickers in California, to bring fentanyl to this state .... [That’s] why [he]
clearly is a danger to the community, clearly has to be deterred.” The court further pointed out
that Ross was caught with contraband pills while awaiting sentencing—a violation reminiscent of
a previous violation where Ross was found, while incarcerated, with pills stored in his rectal cavity.
We therefore conclude that, in detailing Ross’s serious offense, recidivism risk, and threat
to the community, the district court explained its upward variance from the Guidelines range with
sufficient specificity to easily survive a procedural-reasonableness challenge on plain-error review.

-8-

(9 of 10)

Case: 20*3163

Document: 43-2

Filed:'03/02/2021

Page: 9

Case No. 20-3163, United States v. Ross
See Zobel, 696 F.3d at 567-68 (finding the above-Guidelines sentence to be procedurally
reasonable where the district court considered, in its oral explanation, the defendant’s
characteristics and need for treatment, and emphasized the defendant’s risk of recidivism and his
threat to the community) (collecting similar cases).
III. CONCLUSION
For all of the reasons set forth above, we AFFIRM the judgment of the district court.

-9-

(10 of 10)

APPENDIX

r

C

Case: l:19-cr-00351-JRA Doc#: 30 Filed: 10/15/19 lof5. PagelD#:175

UNITED STATES DISTRICT COURT
NORTHERN DISTRICT OF OHIO
EASTERN DIVISION
UNITED STATES OF AMERICA,
Plaintiff,
vs.

)
)
)
)

)

BENJAMIN ROSS,
Defendant.

CASE NO. 1:19CR351

JUDGE JOHN R. ADAMS

)
)
)

ORDER

This matter comes before the Court on a motion to suppress (Doc. 24) filed by Defendant
Benjamin Ross. The Government timely opposed the motion, and the Court conducted an
evidentiary hearing on September 23, 2019. Upon review of the relevant findings, the evidence
introduced at the hearing on this matter, and applicable law, Ross’s motion to suppress is
DENIED.
I.

FACTS
On May 15, 2019, Sergeant Alan Dunbar initiated a traffic stop of Ross’s vehicle near

the intersection of Lowell Avenue and Southern Boulevard in Youngstown, Ohio,

Upon

initiating the traffic stop, Sergeant Dunbar informed Ross that he had been pulled over for the
darkness of his window tint and the late use of his turn signal. Sergeant Dunbar testified that
during his initial interaction with Ross , Ross was very nervous. Ross avoided eye contact and
Sergeant Dunbar “advised him that [he] could practically see his heart beating through his
shirt[.]”

Sergeant Dunbar then requested that Ross step out of the vehicle and requested

permission to perform a pat-down of Ross’s person. Ross consented to the pat-down. No
weapons or contraband were found during the pat-down.

1

V'
Case: l:19-cr-00351-JRA Doc #: 30 Filed: 10/15/19 2 of 5. PagelD #: 176

While Sergeant Dunbar again explained the
reasons that Ross had been pulled over,
Trooper James Baker appeared on scene with drug-detection dog, Rexey. Rexey alerted on the
driver s side of the vehicle near the rear door,
vehicle. Specifically, they searched a child

Based upon that alert, the officers searched the

s toy train package that was sitting on the back seat

of the vehicle. Inside the child’s toy box, the officers found a
contained several hundred blue pills that ultimately were

vacuum-sealed bag. The bag

determined to be 117 grams of fentanyl.

Ross has sought to suppress the evidence seized from the vehicle, evidence obtained from
a subsequent search of his cell phones, and his statements.

The Court now reviews his

arguments.
II.

LAW & ANALYSIS
It is well-settled that a traffic stop is proper “so long as the officer has probable cause to

believe that a traffic violation has occurred or was
occurring,” United States v. Palomino, 100
F.3d 446, 448 (6th Cir. 1996), and therefore a defendant's traffic violations
sufficient probable cause to initiate a stop. See also United States v.

are more than

Puckett, 422 F.3d 340 (6th

Cir. 2005). “Probable cause is defined as ‘reasonable grounds for belief, supported by less than
prima facie proof but more than mere suspicion.’” United States v. Smith, 182 F.3d 473, 477 (6th
Cir. 1999) (quoting United States v. Bennett, 905 F.2d 931, 934 (6th Cir. 1990)).
Applicable Ohio law requires window tinting to allow at least fifty percent of the light to
pass through. See Ohio Rev. Code § 4513.241; Ohio Admin. Code § 4501^U-03(A)(3).
Sergeant Dunbar, based on his substantial prior experience, believed that upon observation that
Ross’s windows violated that standard. These facts alone provide a proper basis for the initial
stop. See United States v. Shank, 543 F.3d 309, 313 (6th Cir. 2008)(“Due to the officers
familiarity with window tinting and their estimate that the vehicle

was tinted substantially darker

2

V V

Case: l:19-cr-00351-JRA Doc#: 30 Filed: 10/15/19 3 of 5. PagelD#:177

than permitted by law, we agree with the district court’s determination that the officers had a
proper basis to initiate the traffic stop.). A later test revealed that Sergeant Dunbar was correct
and that the window tinting allowed only 6% of light to pass through.
Ross appears to take issue with Sergeant Dunbar’s observation by asserting that the
driver’s window was rolled down when any observation could have occurred. While the dash
camera appears to substantiate this view, Ohio law does not limit its application to the driver’s
side window. Section 4513.241 makes it unlawful to use tinted glass in “windshields, side
windows, sidewings, and rear windows[.]” The dash camera reveals that prior to initiate the
traffic stop, Sergeant Dunbar had ample opportunity to observe and evaluate the rear side
window on the driver’s side of the vehicle as well as the back window of the vehicle.
Accordingly, the fact that the driver had his window rolled down has no impact on the ability of
Sergeant Dunbar to ascertain that the vehicle appeared to have improperly tinted windows.
In addition, Sergeant Dunbar’s dash camera supported his testimony that Ross’s use of
his turn signal did not occur until his turn on Southern Boulevard was essentially complete.
Sergeant Dunbar’s direct observation of this fact provided an additional, independent reason that
justified the traffic stop. Ohio law provides: “When required, a signal of intention to turn or
move right or left shall be given continuously during not less than the last one hundred feet
traveled by the vehicle ... before turning[.] Ohio Rev. Code. § 4511.39(A). The dash camera
footage suggests that Ross did not utilize his turn signal until after his movement left on
Southern Boulevard was nearly complete. Accordingly, Sergeant Dunbar had ample reason to
initiate the traffic stop.
The Court also finds no merit in any challenge to the search of Ross’s vehicle. A
warrantless search of an automobile is permissible if probable cause exists to believe it contains

3

Case: l:19-cr-00351-JRA Doc#: 30 Filed: 10/15/19 4 of 5. PagelD#:178

evidence of a crime. United States v. Ross, 456 U.S. 798, 809 (1982). There is probable cause to
justify a warrantless search of a vehicle once a properly trained and reliable drug detection dog
alerts positively to the presence of drugs. United States v. Hill, 195 F.3d 258, 273 (6th Cir.
1999). The evidence and testimony herein revealed that Rexey and his handler arrived on scene
within roughly three minutes of the stop beginning.

Rexey then alerted within 30 seconds of

beginning his sniff of the vehicle.
Initially, the Court notes that the Sixth Circuit has noted that reasonable suspicion is not
required to perform a canine inspection of the exterior of a vehicle because no legitimate privacy
interests are impacted. United States v. Perez, 440 F.3d 363, 375 (6th Cir. 2006). Accordingly,
the Court need not analyze whether Sergeant Dunbar’s observations of Ross’s nervous behavior
were sufficient to justify the canine sniff. Moreover, there is no dispute based on the testimony
provided that Rexey is a “well-trained and reliable drug dog[]” and therefore his “positive alerts
provided the necessary probable cause to justify the warrantless search[.]” Id.
The record also does not support any contention that the canine sniff improperly extended
the duration of the traffic stop. Once officers use “all of the appropriate means available to them
to allay their concerns of criminal activity,” they may not further detain a suspect absent
probable cause. United States v. Heath, 259 F.3d 522, 530 (6th Cir.2001). Herein, Sergeant
Dunbar did not delay his own activities in any manner while the search was performed. When
Rexey alerted, Sergeant Dunbar had not yet verified Ross’s identity, checked for active warrants,
or completed his citation.

Accordingly, it cannot be said that the canine sniff improperly

extended the duration of the traffic stop.
To the extent that Ross’s initial motion challenged the search of his phones, the Court
finds no merit in any argument made in support of that contention. The record reveals that the

4

V'

Case: l:19-cr-00351-JRA Doc#: 30 Filed: 10/15/19 5 of 5. PagelD#:179

phones were not searched until after a warrant was obtained from a neutral magistrate judge.
Ross has not challenged that process, and the Court finds no basis to suggest that the warrant was
improperly obtained. Accordingly, Ross’s final argument also lacks merit.
III.

CONCLUSION
For the reasons set forth herein, Defendant Benjamin Ross’s motion to suppress is

DENIED.
IT IS SO ORDERED.

Date: October! 5. 2019

/s/Judge John R. Adams__________
JUDGE JOHN R. ADAMS
UNITED STATES DISTRICT COURT

5

APPENDIX

D

